           Office of Inspector General




April 11, 2005

WILLIAM P. GALLIGAN
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:         Audit Report – Self-Service Vending Program
                 (Report Number DR-AR-05-012)

This report summarizes the results of self-initiated audits of the Self-Service
Vending Program (SSVP) in the Eastern, Northeast, Pacific, Southeast and
Southwest Areas (Project Number 05YG018DR000). Our objective was to
determine whether the SSVP is effectively and efficiently meeting program goals
of increasing revenue and reducing operating costs. Specifically, we determined
whether SSVP managers effectively redeployed vending equipment that did not
meet minimum revenue requirements and discontinued using obsolete vending
equipment. We also performed physical observations of vending machines to
determine if they were operational and easily accessible.

Opportunities exist for Postal Service officials to improve the effectiveness and
efficiency of the SSVP and meet or exceed program goals of increasing revenue
and reducing operating costs. Specifically, Postal Service officials could increase
revenue opportunities by redeploying equipment that does not meet minimum
revenue requirements and possibly reduce maintenance and repair costs by
discontinuing the use of obsolete equipment. Additionally, physical observations
of vending machines indicated that overall the machines were operational and
easily accessible.

Based on these findings, we recommended area officials direct district officials to
review revenue reports to identify underperforming equipment; notify postmasters
of vending equipment that generates low revenue and give consideration to all
feasible alternatives; and complete all necessary actions to redeploy
underperforming equipment as often as possible. We also recommended
management consider all feasible alternatives and complete all necessary
actions to eliminate repair and maintenance cost for the obsolete equipment.
Area officials concurred with the recommendations, but expressed concerns
regarding establishing minimum revenue requirements and capturing repair and
maintenance expenses for each machine. During our review (August 2004) the
vice president, Delivery and Retail, issued a directive to implement nationwide


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
changes in the Postal Service’s SSVP related to our area findings and concerns
expressed by area officials. Therefore, we are making no recommendations that
require management’s comments.

The Postal Service’s strategic goal is to provide convenient access to postal
services for all customers and communities. Self-service vending machines have
provided customers access to postal services since 1964 and continue to do so.
Therefore, as the new automated postal centers are deployed, management
must monitor locations to avoid redeployment issues similar to the self-service
vending equipment. In addition, we recognize management’s desire to provide
customer service; however, because the Postal Service does not capture repair
and maintenance costs, management has no means of assessing whether
obsolete equipment revenues outweigh the costs to operate it.

We appreciate the cooperation and courtesies provided by your staff during our
audits. If you have any questions or need additional information, please contact
Rita F. Oliver, Acting Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William J. Brown
    Alexander Lazaroff
    Alfred Iniguez
    George L. Lopez
    Megan Brennan
    Steven R. Phelps
Self-Service Vending Program                                          DR-AR-05-012




                               TABLE OF CONTENTS

 Executive Summary                                                         i

 Part I

 Introduction                                                             1

     Background                                                           1
     Objective, Scope, and Methodology                                    1
     Prior Audit Coverage                                                 2

 Part II

 Audit Results                                                            3

     Improvements Needed in Redeploying Underperforming Equipment         3
     Continued Use of Obsolete Equipment                                  4
        District and Area Management Implemented Corrective Actions       5
        Headquarters Management Implemented Corrective Action             5

 Appendix. District Reports Issued                                        7
Self-Service Vending Program                                                                       DR-AR-05-012


                                 EXECUTIVE SUMMARY
    Introduction                  This report summarizes the results of self-initiated audits of
                                  the Self-Service Vending Program (SSVP) in the Eastern,
                                  Northeast, Pacific, Southeast and Southwest Areas. The
                                  objective of our audit was to determine whether the SSVP is
                                  effectively and efficiently meeting program goals of
                                  increasing revenue and reducing operating costs.
                                  Specifically, we determined whether SSVP managers
                                  effectively redeployed vending equipment that did not meet
                                  minimum revenue requirements in order to maximize
                                  revenue and discontinued using obsolete vending
                                  equipment.

    Results in Brief              Our audits determined that opportunities existed for area
                                  officials to improve the effectiveness and efficiency of the
                                  SSVP and to meet or exceed program goals of increasing
                                  revenue and reducing operating costs. Officials could
                                  increase revenue opportunities by redeploying equipment
                                  that does not meet minimum revenue requirements.
                                  During fiscal year (FY) 2003, our review indicated that
                                  59 percent (9,308 of 15,731) of the current vending
                                  machines in the Eastern, Northeast, Pacific, Southeast, and
                                  Southwest Areas did not meet the minimum revenue
                                  requirements, which resulted in the areas possibly missing
                                  revenue opportunities of $30.85 to $102.29 million by not
                                  redeploying this equipment. In addition, our review of
                                  first quarter of FY 2004,1 indicated that 58 percent (7,024 of
                                  12,166) of current machines did not meet the minimum
                                  revenue requirements, which resulted in the areas
                                  possibly missing revenue opportunities of approximately
                                  $18.07 million by not redeploying this equipment.

                                  Further, area officials could possibly reduce maintenance
                                  and repair costs by discontinuing the use of obsolete
                                  equipment. During FY 2003, 11 percent (2,038 of 17,769)2
                                  of the vending machines operating in these areas were
                                  classified as obsolete based on Postal Service guidance.
                                  Our review indicated that 89 percent (1,823 of 2,038) of
                                  these vending machines did not meet minimum revenue
                                  requirements during FY 2003. Further review indicated that
                                  during the first quarter of FY 2004, officials continued to use

1
  Due to the timing of the audit fieldwork we did not review the Southeast data for the first quarter of
FY 2004.
2
  This number excludes 85 currency changers that do not generate revenue. The 85 currency changers are
located in the Southeast (24 machines), Eastern (7 machines), Pacific (9 machines), Southwest
(7 machines), and Northeast (38 machines) Areas.


                                                    i
Self-Service Vending Program                                                                       DR-AR-05-012


                                  13 percent (1,770 of 13,936)3 of the obsolete machines,
                                  92 percent (1,632 of 1,770) of which did not meet minimum
                                  revenue requirements.

                                  Additionally, our physical observations of vending machines
                                  indicated that, overall, the machines were operational and
                                  easily accessible.

                                  We recommended retail management review revenue
                                  reports to identify underperforming equipment; notify
                                  postmasters of vending equipment that generates low
                                  revenue; give consideration to all feasible alternatives; and
                                  complete all necessary actions to redeploy underperforming
                                  equipment as often as possible. Additionally, we
                                  recommended management consider all feasible
                                  alternatives and complete all actions necessary to eliminate
                                  repair and maintenance costs for the obsolete equipment.

                                  Area officials concurred with the recommendations, but
                                  expressed concerns regarding establishing of the minimum
                                  revenue requirements and capturing repair and
                                  maintenance expenses for each machine. During our
                                  review (August 2004), the vice president, Delivery and
                                  Retail, issued a directive to implement nationwide changes
                                  in the Postal Service’s SSVP related to our area findings
                                  and concerns expressed by area officials.

    Summary of                    We are making no additional recommendations in this report
    Recommendations               that require management’s comments. Management’s
                                  comments to our individual reports were responsive to our
                                  recommendations and their planned actions should correct
                                  the identified issues.




3
  This number excludes 67 currency changers that do not generate revenue. The 67 currency changers
are located in the Eastern (11 machines), Pacific (9 machines), Southwest (7 machines), and Northeast
(40 machines) Areas.




                                                    ii
Self-Service Vending Program                                                       DR-AR-05-012


                                  INTRODUCTION
 Background                    The Self-Service Vending Program (SSVP) was
                               implemented in October 1964 and is one of the Postal
                               Service’s major programs. It provides Postal Service
                               customers with a convenient alternative for purchasing
                               stamps and other basic Postal Service products after
                               business hours and without standing in line during business
                               hours.

                               Nationwide, the Postal Service maintains approximately
                               30,000 vending machines (27,000 self-service postal
                               centers and 3,000 other types of vending equipment) that
                               generated over $1.9 billion in revenue during fiscal years
                               (FYs) 2001 through 2003.

 Objective, Scope, and         The objective of our audit was to determine whether the
 Methodology                   SSVP is effectively and efficiently meeting program goals of
                               increasing revenue and reducing operating costs.
                               Specifically, we determined whether SSVP managers
                               effectively redeployed vending equipment that did not meet
                               minimum revenue requirements in order to maximize
                               revenue and discontinued the use of obsolete vending
                               equipment.

                               During our audit, we visited selected Postal Service facilities
                               in the Eastern, Northeast, Pacific, Southeast and
                               Southwest, Areas. During these visits we interviewed
                               managers and employees and reviewed documentation and
                               applicable policies and procedures.

                               We analyzed data from the Postal Service’s Vending
                               Equipment Sales and Service System (VESS) for FYs 2002
                               through 2003 and the first quarter of FY 2004 for all district
                               locations in the Eastern, Northeast, Pacific, Southeast, and
                               Southwest Areas to identify equipment that did not meet the
                               minimum revenue requirements and obsolete equipment.
                               Although we relied on data obtained from VESS, we did not
                               test the validity of this data due to time constraints.
                               However, we are conducting a separate audit that includes
                               determining the accuracy of the VESS data. The dollar
                               amounts reported as missed revenue opportunities will not
                               be affected by reliability of the data because the calculations
                               were based on estimated dollar ranges for a period when
                               the underperforming equipment was not redeployed.




                                             1
Self-Service Vending Program                                                     DR-AR-05-012



                               This audit was conducted from January through April 2005
                               in accordance with generally accepted government auditing
                               standards and included such tests of internal controls as
                               were considered necessary under the circumstances. We
                               discussed our observations and conclusions with
                               appropriate management officials and included their
                               comments where appropriate.

 Prior Audit Coverage          The Office of Inspector General (OIG) has issued 17 district
                               reports on this subject. These reports stated that district
                               officials could improve their process for redeploying vending
                               equipment that does not meet minimum revenue
                               requirements. Further, district officials continued to
                               use obsolete machines and possibly incurred maintenance
                               and repair expenses. A complete listing of the district
                               reports issued is included in the appendix of this report.




                                            2
Self-Service Vending Program                                                        DR-AR-05-012


                                  AUDIT RESULTS
 Improvements                  Our review indicated that 59 percent (9,308 of 15,731) of the
 Needed in                     vending machines for the audited areas did not meet the
 Redeploying                   minimum revenue requirements during FY 2003. Vending
 Underperforming               equipment sales totaled approximately $101.24 million,
 Equipment                     which was significantly less than the minimum revenue
                               requirement of $203.75 million. As a result, these areas
                               may have missed revenue opportunities of approximately
                               $30.85 to $102.29 million by not redeploying this equipment
                               during FY 2003. Further, during the first quarter of FY 2004,
                               our review of the vending equipment revenue reports for the
                               areas indicated that 58 percent (7,024 of 12,166) of the
                               vending machines did not meet the minimum revenue
                               requirements. Vending equipment sales totaled
                               approximately $15.94 million, which was significantly less
                               than the minimum revenue requirement of $34.03 million.
                               As a result, these areas may have missed revenue
                               opportunities of approximately $18.07 million by not
                               redeploying this equipment during the first quarter of
                               FY 2004.

                               One of the SSVP’s goals is to increase revenue through the
                               redeployment of equipment. The Postal Service should
                               redeploy equipment that does not meet minimum revenue
                               requirements to other locations. Postal Service policy (see
                               Handbook PO-102, Self-Service Vending Operational and
                               Marketing Program, Chapter 2, Section 256, May 1999,
                               updated with Postal Bulletin revisions through December 25,
                               2003) establishes the minimum revenue requirements for
                               vending machines. The district retail office is responsible for
                               evaluating equipment revenue to find the right location for
                               the right machine.

                               If self-service vending equipment is located in an area where
                               it is unable to generate enough revenue to meet the
                               minimum requirement, the equipment must be considered
                               for redeployment. If revenue does not meet the minimum
                               requirement in three to six accounting periods, the district
                               retail office should place the equipment on a list for
                               redeployment; notify any office where changes will be made;
                               prepare a typewritten or computer-generated notice,
                               approved through the district retail office, to be posted in the
                               lobby informing customers 30 days before removing the
                               equipment; complete Postal Service Form 4805,
                               Maintenance Work Order; and move the equipment to a
                               better location.


                                             3
Self-Service Vending Program                                                      DR-AR-05-012



                               Area and district officials stated they did not redeploy the
                               underperforming vending machines during FY 2003 and the
                               first quarter of FY 2004 because they did not consider the
                               SSVP to be the highest priority. Instead, they directed work
                               efforts to higher priorities, such as the automated postal
                               centers. Further, area and district officials expressed
                               concern regarding the Postal Service’s methodology to
                               establish minimum revenue requirements, in that the current
                               requirements are too high in relation to the machines’
                               geographic locations.

                               The Postal Service’s strategic goal is to provide convenient
                               access to postal services for all customers and communities.
                               Self-service vending machines have provided access since
                               1964 and continue to serve customers. As the new
                               automated postal centers are deployed, management must
                               monitor locations to avoid redeployment issues similar to the
                               self-service vending equipment.

 Continued Use of              During FY 2003, area officials continued to use
 Obsolete Equipment            2,038 obsolete machines, although Postal Service policy
                               discontinued maintenance and repair support for the
                               machines in June 2000. Our review of vending equipment
                               revenue reports for the audited areas indicated that
                               89 percent (1,823 of 2,038) of these vending machines did
                               not meet minimum revenue requirements during FY 2003.
                               Further, during the first quarter of FY 2004, area officials
                               continued to use 1,770 obsolete machines, 92 percent
                               (1,632 of 1,770) of which did not meet minimum revenue
                               requirements.

                               Periodically, the Postal Service lists vending equipment as
                               obsolete, meaning that the equipment has exceeded its
                               expected life cycle and will no longer receive support from
                               maintenance organizations. All inactive retail vending
                               equipment items must be reported to the appropriate district
                               material management specialist. When retail vending
                               equipment items are obsolete or listed as excess, the Postal
                               Service may consider them for disposal action. Parts from
                               obsolete machines may be salvaged and stored for
                               maintenance or repair of other compatible equipment. In
                               June 2000, Postal Service policy listed the obsolete vending
                               equipment that should no longer receive support from
                               maintenance organizations.




                                             4
Self-Service Vending Program                                                      DR-AR-05-012




                               Area and district officials stated that they continued to use
                               and maintain the obsolete equipment because of the
                               potential adverse impact on customer service since
                               replacement equipment was not available. As a result, the
                               areas possibly incurred maintenance and repair expenses
                               by allowing the operation and maintenance of this
                               equipment in the district locations. We were unable to
                               determine the amount of repair and maintenance expenses
                               associated with the machines because the Postal Service
                               does not capture the data for each machine.

                               We recognize management’s desire to provide customer
                               service; however, because the Postal Service does not
                               capture repair and maintenance, management has no
                               means of assessing whether obsolete equipment revenues
                               outweigh the costs to operate it.

                               We recommended retail management review revenue
                               reports to identify underperforming equipment; notify
                               postmasters of vending equipment that generates low
                               revenue; give consideration to all feasible alternatives; and
                               complete all necessary actions to redeploy underperforming
                               equipment as often as possible. Additionally, we
                               recommended management consider all feasible
                               alternatives and complete all actions necessary to eliminate
                               repair and maintenance costs for the obsolete equipment.

 District and Area             Area management agreed with the findings and
 Management                    recommendations of these reports. Based on these
 Implemented                   findings, these officials initiated corrective actions to
 Corrective Actions            redeploy underperforming vending equipment and remove
                               obsolete equipment. Management’s actions taken or
                               planned should correct the issues identified in the reports.

 Headquarters                  Based on our findings and recommendations in these
 Management                    reports, the vice president, Delivery and Retail, issued a
 Implemented                   directive in August 2004 to implement nationwide changes in
 Corrective Action             the Postal Service’s SSVP. The changes included
                               development of a task force to implement a self-service
                               strategy that would eliminate costly obsolete
                               vending equipment; remove and redeploy current, under-
                               performing vending equipment; and revise removal and
                               redeployment vending machine criteria.




                                             5
Self-Service Vending Program                                                    DR-AR-05-012



                               Since management’s comments to our individual reports
                               were responsive to our recommendations and their planned
                               actions should correct the identified issues, we are making
                               no additional recommendations in this report.




                                            6
Self-Service Vending Program                                          DR-AR-05-012



                                  APPENDIX
                          DISTRICT REPORTS ISSUED
1.   Self-Service Vending Program – Atlanta District
     Report Number DR-AR-04-002, dated July 1, 2004

2.   Self-Service Vending Program –Tennessee District
     Report Number DR-AR-04-003, dated June 30, 2004

3.   Self-Service Vending Program – Alabama District
     Report Number DR-AR-04-004, dated June 30, 2004

4.   Self-Service Vending Program – Greater South Carolina District
     Report Number DR-AR-04-007, dated September 20, 2004

5.   Self-Service Vending Program – Massachusetts District
     Report Number DR-AR-04-008, dated September 24, 2004

6.   Self-Service Vending Program – Nevada-Sierra District
     Report Number DR-AR-04-009, dated September 24, 2004

7.   Self-Service Vending Program – Rio Grande District
     Report Number DR-AR-04-010, dated September 24, 2004

8.   Self-Service Vending Program – Sacramento District
     Report Number DR-AR-04-011 dated September 28, 2004

9.   Self-Service Vending Program - Kentuckiana District
     Report Number DR-AR-04-012, dated September 30, 2004

10. Self-Service Vending Program – Oklahoma District
    Report Number DR-AR-05-001, dated October 14, 2004

11. Self-Service Vending Program – Boston District
    Report Number DR-AR-05-002, dated October 14, 2004

12. Self-Service Vending Program – Fort Worth District
    Report Number DR-AR-05-003, dated October 14, 2004

13. Self-Service Vending Program – Cincinnati District
    Report Number DR-AR-05-004, dated October 14, 2004

14. Self-Service Vending Program – Greensboro District
    Report Number DR-AR-05-005, dated October 19, 2004

15. Self-Service Vending Program – Albany District
    Report Number DR-AR-04-006 dated September 13, 2004




                                       7
Self-Service Vending Program                             DR-AR-05-012



16. Self-Service Vending Program - Santa Ana District
    Report Number DR-AR-05-007 dated November 4, 2004

17. Self-Service Vending Program - Bay Valley District
    Report Number DR-AR-05-008 dated November 1, 2004




                                   8
